               OFFICE OF
        THE INSPECTOR GENERAL

    SOCIAL SECURITY ADMINISTRATION

            NATIONAL ROLLOUT OF
              QUICK DISABILITY
              DETERMINATIONS


        May 2009      A-01-09-19030




     AUDIT REPORT




.
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                        SOCIAL SECURITY
MEMORANDUM

Date:   May 13, 2009                                                           Refer To:

To:     The Commissioner

From:   Inspector General

Subject: National Rollout of Quick Disability Determinations (A-01-09-19030)



        OBJECTIVE

        Our objective was to assess the Social Security Administration's (SSA) national rollout
        of Quick Disability Determinations (QDD).

        BACKGROUND
        On August 1, 2006, SSA implemented the QDD process in the Boston Region. QDD
        cases are initial disability cases that are electronically identified as

            (a) having a high potential the claimant is disabled,
            (b) likely that evidence of the claimant’s allegations can be easily and quickly
                obtained, and
            (c) a case that can be processed quickly in the disability determination services
                (DDS).1

        In our May 2007 review, Quick Disability Determinations (A-01-07-17035), we analyzed
        cases selected for the QDD pilot in the Boston Region. As a result of our review, SSA
        issued formal procedures to ensure payments for QDD claims are not delayed in any
        Agency component.2 In October 2007, SSA began expanding QDD beyond the Boston
        Region, and the national rollout was completed in February 2008.



        1
          The QDD predictive model selects cases by assessing the information provided by the claimant on the
        disability application in determining the likelihood that these criteria are met. The recommended
        timeframe for processing QDD claims in the DDS is 20 days or less.
        2
          In our review of 667 cases selected for QDD processing during the pilot, 16 claimants (2.4 percent)
        were determined to be disabled but had not been paid timely. These claimants had been waiting up to
        5 months after the DDS found them disabled for the Agency to finish the non-medical development and
        initiate payments.
Page 2 - The Commissioner


Since the national implementation of QDD, SSA has analyzed the results of the
predictive model that selects claims for QDD processing—including feedback from the
regions and DDSs on areas of improvement in the selection of QDD cases using the
predictive model. Based on this analysis, on December 15, 2008, the Agency
enhanced the QDD predictive model to select approximately 3.3 percent of initial claims
for QDD processing—increased from 2.9 percent selected between June and
September 2008.3 When combined with Compassionate Allowances (CAL),
approximately 3.7 percent of initial claims will be automatically selected for expedited
processing.4 SSA plans to optimize the QDD receipt levels in the future.5

While the DDS assesses the medical evidence to determine whether the claimant is
disabled under the Social Security Act, SSA field office staff assesses the non-medical
factors of eligibility, such as evaluating work activity or developing proof of age. If a
claim is selected for QDD processing, the SSA field office is required to complete all
necessary non-medical development as quickly as possible.6

To perform this review, we obtained a file of 40,432 initial disability claims selected for
QDD processing from March 1 to September 30, 2008. We analyzed disability
determination records, benefit records and electronic disability folder information for a
sample of 575 of these claims. (See Appendix B for additional information on our scope
and methodology.)

RESULTS OF REVIEW
We found that SSA generally made medical determinations for claims selected for QDD
processing within the Agency’s recommended timeframe of 20 days or fewer.7
Additionally, the controls put in place after the QDD pilot in the Boston Region helped
ensure claimants were paid in a timely manner.



3
  SSA enhanced the QDD predictive model to improve scoring of cases—including extensive dictionary
modifications to catch misspelled words, standardizing names of conditions and grouping structured data
fields such as age.

4
  The CAL initiative—implemented in October 2008—identifies diseases and other medical conditions
that invariably qualify under SSA’s Listing of Impairments based on minimal, but sufficient, objective
medical information. The CAL predictive model is simpler than for QDD—selecting claims for processing
based solely on the claimant’s allegation of having a disease or other medical condition listed in the
Agency’s list of CAL conditions. SSA, Program Operations Manual System (POMS), DI 23022.015.

5
  SSA will review the percentage of initial DDS receipts that were identified as QDD cases for the period
December 15, 2008 through March 27, 2009. If significant shortfalls in QDD receipts were experienced
from the stated target of 3.3 percent, the Agency may adjust the QDD thresholds accordingly—taking into
account DDS workloads.
6
    SSA, POMS, DI 11010.025.
7
    SSA, POMS DI 23022.010.
Page 3 - The Commissioner


In our 575 sample claims selected                                    Results of Review
                                                      575 Sam ple Claim s Selected for QDD Processing
for QDD processing,
 537 were allowed for disability
    benefits; and
                                                    Allowed
 38 were not allowed for disability                537 Claims                                Not Allowed
                                                    (93%)                                     38 Claims
    benefits.                                                                                 (7%)

The average processing time for all
claims selected for QDD was
18 days, ranging from 1 day to
224 days.8

Table 1 shows the breakout of the
575 sample cases by SSA program—Disability Insurance (DI) and/or Supplemental
Security Income (SSI)—and by Region.9 (See Appendix C for a breakout by State.)


       Table 1: Summary of Sample QDD Cases by SSA Program and Region
                                                                             Both DI and
                             DI Only                  SSI Only                                         Total
                                                                                 SSI
      Region                                                                                            by
                                      Not                      Not                      Not
                         Allowed                 Allowed                   Allowed                    Region
                                    Allowed                  Allowed                  Allowed
 1   Boston                19           2            3           0            5           0                  29
 2   New York              28           3           14           0            5           0                  50
 3   Philadelphia          32           1           21           2            7           1                  64
 4   Atlanta               52           2           48           4           18           2                 126
 5   Chicago               58           2           32           4            9           1                 106
 6   Dallas                24           4           23           0            9           0                  60
 7   Kansas City           11           1            5           0            1           0                  18
 8   Denver                 5           0            2           0            2           0                   9
 9   San Francisco         44           4           34           2            5           2                  91
10   Seattle               10           1            9           0            2           0                  22

      TOTAL                283        20           191           12          63           6                 575

                          Of the 575 cases selected for QDD, 537 (about 93 percent) were
Claims                    allowed for disability benefits. The average processing time for all
Allowed
8
 Assuming the processing time of the population of cases selected for QDD processing is normally
distributed and using inferential statistical techniques, we are 90-percent confident that the average
processing time for the entire population would be found between 16 and 20 days.
9
  The Social Security Act § 201, et seq., 42 U.S.C. § 401, et seq. The DI program provides benefit
payments to qualified disabled workers and their dependents as well as to survivors of insured workers.
The Social Security Act § 1601, et seq., 42 U.S.C. § 1381, et seq. The SSI program provides a minimum
level of income to financially needy individuals who are aged, blind or disabled.
Page 4 - The Commissioner


allowances was 15 days,10 ranging from 1 day to 224 days from the date the claim was
received in the DDS until the medical determination was completed by the DDS or
affirmed by a Federal quality reviewer.11

We sorted the sample claims by diagnosis code and identified the 15 most common
diagnoses. Of the 537 allowances in our sample, we found most (380 claimants) had
1 of the 15 most common diagnoses (as shown in Table 2). SSA adjudicated their
claims in 12 days, on average.


                       Table 2: Primary Diagnoses of Allowed Cases
                                                             Number of     Average
                          Diagnosis
                                                               Cases   Processing Time
       Lung Cancer                                                  85               12 days
       Premature – Birth Weight Under 1,200 grams                   74                5 days
       Chronic Renal Failure                                        43               13 days
       Breast Cancer                                                28                9 days
       Pancreatic Cancer                                            21                7 days
       Colon, Rectal or Anal Cancer                                 18               15 days
       Kidney Cancer                                                16                9 days
       Ovarian Cancer                                               13               10 days
       Liver Cancer                                                 13               12 days
       Esophageal Cancer                                            13               16 days
       Liver Disease and Cirrhosis                                  13               63 days
       Autistic Disorders                                           12               23 days
       Leukemia                                                     11               11 days
       Down Syndrome                                                10               12 days
       Cerebral Palsy                                               10               11 days

       Total                                                      380                12 days




10
  DDS adjudicators removed 60 of the 537 claims from QDD processing before completing the medical
reviews—generally because the claimant’s medical records could not be quickly obtained. The average
processing time for the 477 claims that were allowed and remained in the QDD process was 9 days,
ranging from 1 day to 67 days.
11
  The Disability Quality Branch selects half the DDS’ allowances and a statistically valid sample of the
DDS’ denials. A Federal quality reviewer reviews every DDS claim selected for quality review to
determine whether the record supports the determination and whether the evidence and determination
conform to SSA’s operating policies and procedures.
Page 5 - The Commissioner


Of the 575 cases selected for QDD, 175 had a terminal illness (TERI) case indicator.
SSA or DDS staff may indicate a claim is a TERI case if the claimant alleges or medical
records indicate an impairment is untreatable (that is, the impairment cannot be
reversed and is expected to end in death). Cases with a TERI indicator must be
handled in an expeditious manner because of their sensitivity.12 Of the 175 QDD claims
that were also TERI cases, 171 were allowed and 4 were not allowed.13 These
175 cases were processed in an average of 13 days.

                     Of the 575 cases selected for QDD, 38 (about 7 percent) were not
Claims Not           allowed for disability benefits. Of these 38 claims, 35 did not meet
Allowed              SSA’s medical criteria for disability, and 3 did not meet the Agency’s
                     non-medical eligibility criteria for disability benefits. Although only
7 percent of cases selected for QDD were not medically allowed, we analyzed these
38 cases further since one of the factors considered when selecting a case for QDD
processing is its high potential that the claimant is disabled. Table 3 summarizes why
these 38 claimants were not allowed benefits.


                  Table 3: Reasons QDD Cases Not Medically Allowed
              Able to perform past work                                                  8
              Impairment not expected to last 12 months                                  8
              Able to perform work other than past occupation                            7
              Impairment not severe                                                      6
              Children’s claims - the impairment(s) did not meet or
                                                                                         3
              medically equal a listing or functionally equal the listings14
              Did not meet non-medical eligibility criteria                              3
              Insufficient evidence                                                      2
              Disability would end if alcohol abuse ceased                               1
              Total                                                                     38

Based on our review of these cases, it appeared the claims were appropriately selected
for QDD processing, based on information the claimants initially provided to SSA.




12
     SSA, POMS DI 23020.045.
13
  One claimant with terminal lung cancer died during the waiting period and before the DDS made a
determination. The other three claimants did not allege terminal illnesses, and the medical records did
not indicate a terminal illness. These three claims were improperly coded as TERI cases.
14
   SSA’s Medical Listings describe impairments that are considered severe enough to prevent an adult
from doing any gainful activity or to cause marked and severe functional limitations in a child younger
than 18 years. To find a child disabled, SSA must determine his/her impairment(s) meets or medically
equals a listing or functionally equals the listings.
Page 6 - The Commissioner


PAYMENTS HAVE BEEN EXPEDITED

SSA has improved processing time for issuing payments since the QDD pilot program.
In our prior review of the pilot, 2.4 percent of claimants selected for QDD were
determined to be disabled but had not been paid timely. In our current review of the
national rollout of QDD, benefits were generally paid to all claimants in our sample who
were due payments. Of the 537 claimants who were allowed, 46 died before payments
could be started; 12 SSI claimants were not eligible for payments because of technical
factors (such as income); and 123 DI claimants were alive and still in the waiting period
when the DDS allowed the claim.15 Table 4 shows, for the remaining 356 claimants,
SSA initiated payments in an average of 19 days—ranging from 1 day to 252 days from
the date of allowance or quality review to the date the first payment was made.16

      Table 4: Average Payment Processing Time for the 356 QDD Claims Allowed
            and Paid—Not Deceased or in the Waiting Period When Allowed
                                                         Both DI and
               Title          DI Only       SSI Only                     Total
                                                             SSI
     Number of Cases                         120                178                   58              356
     Average Processing Time             16 days           21 days              20 days          19 days

QDD CLAIMS PROCESSED DURING THE WAITING PERIOD

In our prior audit, we found that SSA spent resources expediting medical determinations
for claimants early in their waiting periods—even though benefits could not be paid
immediately. We recommended “[SSA] consider refining the QDD selection process in
the future—prior to rolling it out to another region—to focus on SSI claims and DI claims
at the end of or beyond the statutorily required waiting period.” SSA disagreed with our
recommendation because of cost and policy factors.

In our current audit, we found that of the 575 cases selected for QDD processing,
272 were claims for SSI payments—either SSI only or concurrent DI/SSI. SSI eligibility
provides immediate cash assistance and immediate access to medical coverage
(generally through Medicaid in most States) to needy individuals who are disabled, blind
or aged.17



15
   The Social Security Act § 223(a)(1)(E), 42 U.S.C. § 423(a)(1)(E) states that a DI beneficiary is eligible
to receive payments after serving a waiting period of 5 consecutive calendar months throughout which he
or she has been under a disability (that is, 5 full months after the date SSA established as the onset of
the disability).
16
   SSA paid all claimants, including those approved during their waiting period, in an average of 43 days
after the medical allowance—ranging from 1 day to 252 days.
17
  The Social Security Act §§ 1601, et seq. and 1902(a)(10)(C), 42 U.S.C. §§ 1381, et seq., and
1396a(a)(10)(C).
Page 7 - The Commissioner


The remaining 303 cases selected for QDD were claims for DI benefits only and had to
serve a waiting period before receiving benefits. DI eligibility generally provides access
to medical coverage through Medicare after the beneficiary serves a waiting period of
24 months.18

Table 5 shows the length of time the 303 DI claimants were in their waiting period on
the day their claims were transferred to the DDS—based on the date they alleged their
disability began. Of these 303 DI claimants, 120 (about 40 percent) were early in their
waiting period when the DDS received their claims.


                    Table 5: Waiting Period When Case Selected for QDD
                       Waiting Period         Number of Cases Percent
                 Waiting Period Not Begun Yet                 11         4%
                 In 1st Month of Waiting Period               33        11%
                 In 2nd Month of Waiting Period               42        14%
                 In 3rd Month of Waiting Period               34        11%
                 Subtotal                                    120        40%
                 In 4th Month of Waiting Period               25         8%
                 In 5th Month of Waiting Period               22         7%
                 Waiting Period Completed                    136        45%
                 Subtotal                                    183        60%
                 TOTAL                                       303      100%

Of these 303 DI claimants, 20 were denied and 283 were allowed. Of the 283 allowed
claimants, 40 died before payments could be started, 123 were still in the waiting period
when the DDS allowed the claim, and 120 had completed the waiting period and could
start receiving benefits immediately when the DDS allowed the claim.

We still believe SSA should refine the QDD process so individuals who will immediately
benefit from expedited processing receive priority over individuals who might benefit
from receiving an allowance determination before their eligibility for benefits. However,
the Agency considered our previous recommendation and decided not to accept it, and
we acknowledge that the QDD selection process is a SSA management decision.




18
     The Social Security Act § 226(b), 42 U.S.C. § 426(b).
Page 8 - The Commissioner


CONCLUSION
Since the national rollout, QDD is working as intended. We found that SSA allowed
93 percent of claims selected for QDD and generally made medical determinations for
these claims within the recommended timeframe of 20 days or fewer. Additionally, the
controls put in place after our review of the pilot program helped ensure claimants were
paid in a timely manner.

AGENCY COMMENTS

SSA concurred with the conclusions in the report (see Appendix D).



                                            S
                                               Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Sample Cases by Region and State

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                             Appendix A

Acronyms
CAL      Compassionate Allowances
DDS      Disability Determination Services
DI       Disability Insurance
OIG      Office of the Inspector General
POMS     Program Operations Manual System
QDD      Quick Disability Determinations
SSA      Social Security Administration
SSI      Supplemental Security Income
TERI     Terminal Illness
U.S.C.   United States Code
                                                                      Appendix B

Scope and Methodology
To accomplish our objective, we:

 Reviewed applicable sections of the Social Security Act and the Social Security
  Administration’s (SSA) regulations, rules, policies and procedures.

 Reviewed our May 2007 report, Quick Disability Determinations (A-01-07-17035),
  which summarized the results of the Quick Disability Determination (QDD) pilot in the
  Boston Region.

 Reviewed the Disability Determination Services (DDS) Performance Management
  Report showing the average time from DDS receipt of a case to the DDS clearance.

 Obtained a file of 40,432 claims selected for QDD processing between March 1 and
  September 30, 2008.

 Selected a sample of 575 claims for detailed review. For each claim, we:

  (a) Reviewed SSA’s systems, including the Disability Determination Services Query,
      Master Beneficiary Record, Supplemental Security Record and electronic
      disability folder.

  (b) Calculated the number of days it took the Agency to complete the medical
      determination (including quality reviews) after the claim was selected for QDD
      processing.

  (c) Calculated the number of days it took the Agency to complete all actions to initiate
      payments—for claimants who were medically allowed—after the claim was
      selected for QDD processing.

We conducted our audit between October 2008 and February 2009 in Boston,
Massachusetts. The entities audited were the Offices of Disability Programs under the
Deputy Commissioner for Disability and Income Security Programs and Disability
Determinations under the Deputy Commissioner for Operations. We conducted this
performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We tested the data obtained for our audit
and determined them to be sufficiently reliable to meet our objective. We believe the
evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objectives.
                                                                      Appendix C

Sample Cases by Region and State
Tables C-1 through C-10 show the breakout of the 575 Quick Disability Determination
(QDD) sample cases by Disability Insurance (DI) and/or Supplemental Security Income
(SSI) program and by Region and State.

                Table C-1: Summary of Sample QDD Cases Region 1: Boston
                          DI Only          SSI Only         Both DI and SSI     Total
     State                      Not                 Not                 Not      by
                    Allowed   Allowed   Allowed   Allowed   Allowed   Allowed   State
 Connecticut            8         0         1         0         0         0      9
 Maine                  2         0         0         0         2         0      4
 Massachusetts          5         2         1         0         1         0      9
 New
                      2             0     0         0         0         0        2
 Hampshire
 Rhode Island         1             0     0         0         1         0        2
 Vermont              1             0     1         0         1         0        3

 TOTAL                19            2     3         0         5         0        29



               Table C-2: Summary of Sample QDD Cases Region 2: New York
                          DI Only          SSI Only         Both DI and SSI     Total
     State                      Not                 Not                 Not      by
                    Allowed   Allowed   Allowed   Allowed   Allowed   Allowed   State
 New York              22         0        10         0         4         0      36
 New Jersey             3         1         4         0         1         0       9
 Puerto Rico            3         2         0         0         0         0       5

 TOTAL                28            3     14        0         5         0        50




                                           C-1
         Table C-3: Summary of Sample QDD Cases Region 3: Philadelphia
                     DI Only            SSI Only         Both DI and SSI     Total
    State                    Not                 Not                 Not      by
                 Allowed   Allowed   Allowed   Allowed   Allowed   Allowed   State
Delaware             4         0         2         0         0         0       6
Maryland             3         0         4         0         0         0       7
Pennsylvania        15         0         8         1         2         0      26
Virginia             3         1         0         0         3         1       8
West Virginia        7         0         7         1         2         0      17

TOTAL              32          1       21        2         7         1        64



            Table C-4: Summary of Sample QDD Cases Region 4: Atlanta
                     DI Only            SSI Only         Both DI and SSI     Total
    State                    Not                 Not                 Not      by
                 Allowed   Allowed   Allowed   Allowed   Allowed   Allowed   State
Alabama              7         0         4         0         2         0      13
Florida             17         1        11         2         4         0      35
Georgia              7         0        11         0         2         0      20
Kentucky             4         0         3         1         3         0      11
Mississippi          1         1         6         0         3         0      11
North Carolina       6         0         8         0         2         0      16
South Carolina       4         0         1         1         2         2      10
Tennessee            6         0         4         0         0         0      10

TOTAL              52          2       48        4         18        2       126




                                        C-2
             Table C-5: Summary of Sample QDD Cases Region 5: Chicago
                      DI Only            SSI Only         Both DI and SSI     Total
    State                     Not                 Not                 Not      by
                  Allowed   Allowed   Allowed   Allowed   Allowed   Allowed   State
Ohio                  6         0         7         1         3         0       17
Illinois             20         1        10         2         1         1       35
Indiana               6         1         3         1         0         0       11
Michigan             15         0         5         0         5         0       25
Minnesota             4         0         3         0         0         0        7
Wisconsin             7         0         4         0         0         0       11

TOTAL               58          2       32        4         9         1        106



              Table C-6: Summary of Sample QDD Cases Region 6: Dallas
                      DI Only            SSI Only         Both DI and SSI     Total
    State                     Not                 Not                 Not      by
                  Allowed   Allowed   Allowed   Allowed   Allowed   Allowed   State
Arkansas              0         0         4         0         1         0       5
Louisiana             3         1         3         0         2         0       9
New Mexico            3         0         1         0         1         0      5
Oklahoma              1         0         2         0         1         0       4
Texas                17         3        13         0         4         0      37

TOTAL               24          4       23        0         9         0        60



            Table C-7: Summary of Sample QDD Cases Region 7: Kansas City
                      DI Only            SSI Only         Both DI and SSI     Total
    State                     Not                 Not                 Not      by
                  Allowed   Allowed   Allowed   Allowed   Allowed   Allowed   State
Iowa                  3         0         1         0         0         0      4
Kansas                2         1         2         0         0         0      5
Missouri              4         0         1         0         0         0      5
Nebraska              2         0         1         0         1         0      4

TOTAL               11          1       5         0         1         0        18




                                         C-3
              Table C-8: Summary of Sample QDD Cases Region 8: Denver
                        DI Only          SSI Only         Both DI and SSI     Total
     State                    Not                 Not                 Not      by
                  Allowed   Allowed   Allowed   Allowed   Allowed   Allowed   State
Colorado              3         0         1         0         2         0      6
Montana               2         0         0         0         0         0      2
Utah                  0         0         1         0         0         0      1

TOTAL               5             0     2         0         2         0        9



           Table C-9: Summary of Sample QDD Cases Region 9: San Francisco
                        DI Only          SSI Only         Both DI and SSI     Total
     State                    Not                 Not                 Not      by
                  Allowed   Allowed   Allowed   Allowed   Allowed   Allowed   State
Arizona               8         0         4         0         1         0      13
California           33         4        28         2         4         0      71
Hawaii                0         0         1         0         0         0       1
Nevada                3         0         1         0         0         2       6

TOTAL               44            4     34        2         5         2        91



             Table C-10: Summary of Sample QDD Cases Region 10: Seattle
                        DI Only          SSI Only         Both DI and SSI     Total
     State                    Not                 Not                 Not      by
                  Allowed   Allowed   Allowed   Allowed   Allowed   Allowed   State
Alaska                2         0         1         0         0         0       3
Idaho                 1         0         0         0         0         0       1
Oregon                0         1         1         0         1         0       3
Washington            7         0         7         0         1         0      15

TOTAL               10            1     9         0         2         0        22




                                         C-4
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      April 27, 2009                                                        Refer To: S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General


From:      James A. Winn /s/
           Chief of Staff


Subject:   Office of the Inspector General (OIG) Draft Report, “National Rollout of Quick Disability
           Determinations” (A-01-09-19030)


           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. There were no recommendations, and we concur with the
           conclusion in the report.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division

   David Mazzola, Audit Manager

   Phillip Hanvy, Acting Audit Manager

Acknowledgments

In addition to those named above:

   Katie Greenwood, Auditor

   Brennan Kraje, Statistician

   Toni Paquette, Program Analyst

   Katie Toli, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-01-09-19030.
                              DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions and
Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
